<html>
<title> - THE NATIONAL BROADBAND PLAN: PROMOTING BROADBAND ADOPTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
       THE NATIONAL BROADBAND PLAN: PROMOTING BROADBAND ADOPTION

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 13, 2010

                               __________

                           Serial No. 111-124


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
76-579                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
    Prepared statement...........................................     4
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
    Prepared statement...........................................    10
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    12
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    12
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    13
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    14
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................    15
    Prepared statement...........................................    17
Hon. Parker Griffith, a Representative in Congress from the State 
  of Alabama, opening statement..................................    20
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    20
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    21
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    22
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................    22
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, prepared statement....................................   111

                               Witnesses

Carol Mattey, Deputy Chief, Wireline Competition Bureau, Federal 
  Communications Commission......................................    24
    Prepared statement...........................................    26
Rachelle Chong, Special Counsel, California Office of the Chief 
  Information Officer............................................    31
     Prepared statement..........................................    33
Rikvah Sass, Director, Sacramento Public Library System..........    37
    Prepared statement...........................................    39
C. Howie Hodges II, Senior Vice President, Government Affairs, 
  One Economy....................................................    53
    Prepared statement...........................................    55
Laura Taylor, Chief Policy Officer, Connected Nation.............    62
    Prepared statement...........................................    64


       THE NATIONAL BROADBAND PLAN: PROMOTING BROADBAND ADOPTION

                              ----------                              


                         THURSDAY, MAY 13, 2010

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boucher, Eshoo, DeGette, 
Butterfield, Matsui, Space, Welch, Waxman (ex officio), 
Stearns, Shimkus, Shadegg, Terry, Blackburn, Griffith, Latta, 
and Barton (ex officio).
    Staff present: Roger Sherman, Chief Counsel; Tim Powderly, 
Senior Counsel; Amy Levine, Counsel; Shawn Chang, Counsel; Greg 
Guice, Counsel; Bruce Wolpe, Senior Advisor; Pat Delgado, Chief 
of Staff (Waxman); Sarah Fisher, Special Assistant; Mitch 
Smiley, Special Assistant; Will Carty, Professional Staff 
Member, CTCP; and Neil Fried, Telecommunications Counsel.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The hearing will come to order. Good morning 
to everyone. Today is the fourth in the series of hearings that 
we are conducting on the FCC's recently released National 
Broadband Plan. Last month, the subcommittee considered how 
best to deploy broadband in areas that are unserved and 
underserved so that all Americans, particularly those in the 
rural stretches of our Nation, will have access to this vital 
and critical infrastructure, which broadband in this century 
has become.
    Our hearing today is a corollary to our hearing on 
broadband deployment. Once Americans have access to quality 
broadband services, what steps should be taken in order to 
encourage them to subscribe to it? According to the National 
Broadband Plan, about 35 percent of Americans or about 80 
million adults do not use broadband at home even though they 
have access to the service. This number includes high 
percentages of low-income households, minorities, seniors, 
individuals with low levels of education, residents in rural 
areas and individuals with disabilities.
    The National Broadband Plan identifies several barriers to 
broadband adoption, including cost, digital literacy, including 
a general level of discomfort with computers, concerns about 
Internet safety and security, and, in the minds of some, a 
perceived lack of relevance of broadband in people's lives. One 
proposal to make broadband more affordable for low-income 
households is to expand the Lifeline and Linkup programs 
contained within the Federal Universal Service Fund. And I want 
to commend our committee colleague, Ms. Matsui from California, 
for her leadership in this area including the introduction of 
legislation pertaining to the matter.
    It is my hope that soon we will be prepared in the 
subcommittee to mark up the Universal Service Reform Measure 
that I put forward in partnership with Mr. Terry, and I very 
much look forward to working with the gentlelady from 
California at that time in order to assure that her goals are 
reflected in the legislation.
    We will welcome the testimony of our witnesses this morning 
on ways that broadband adoption can be expanded, and I want to 
thank each of them for taking the time to join us and share 
their thoughts.
    Anticipating that some members of our subcommittee may take 
the occasion of today's broadband hearing to comment on the 
FCC's decision to apply selected sections of Title II to 
broadband, I will also offer a few comments on that subject 
this morning.
    The D.C. Circuit's decision in the Comcast case has cast 
doubt on the FCC's authority to implement many elements of the 
National Broadband Plan and to enforce the four principles of 
network neutrality that were adopted under the guidance of 
former FCC Chairman Michael Powell. Those four principles 
adopted during his tenure were consensus based. They were 
noncontroversial, and the FCC now has a rule-making underway 
that would add to those four principles, principles of 
nondiscrimination and transparency.
    The Comcast decision has placed in doubt the FCC's ability 
to go forward with that rule-making as well as to enforce the 
existing four network neutrality principles. In order to 
address these concerns, Chairman Jenachowski has decided to 
proceed with a light regulatory touch that fits with the 
commission's settled deregulatory policy framework for 
broadband services.
    The FCC will classify the transmission component of 
broadband access services as telecommunications services under 
Title II of the Communications Act and will forebear from 
applying all but six of Title II 48 provisions. Essentially, 
the commission will apply the broadband prohibitions on 
unreasonable denials of service and other unjust and 
unreasonable practices. The commission will also apply 
universal service principles that will assure the provision of 
advanced network services, will protect the confidentiality of 
customer call records, and will assure the accessibility of 
telecommunication services to people who have disabilities.
    The commission has adopted, in my view, a very limited 
approach to assuring network openness. But another path also 
exists for achieving these goals. If broadband providers differ 
with the approach that the FCC has taken in applying six of a 
total of 48 sections of Title II to broadband, our door is 
open. We would be pleased to discuss with broadband providers 
and with the proponents of network neutrality the creation of a 
targeted set of principles to assure network openness. If those 
discussions produce consensus, Congress could enact legislation 
adopting the agreed-upon principles as a means of providing 
regulatory certainty. That is the path I hope we can follow.
    If broadband providers are of the view that targeted 
legislation is now preferable to the selected application of 
Title II to broadband, I invite them to engage in discussions 
with us on what those targeted provisions should be. I am ready 
to work with members of this subcommittee on both sides of the 
aisle and with interested members of the full committee as we 
discuss with an array of stakeholders the best way to proceed 
in this matter.
    By acting in a bipartisan, consensus-based manner, we can 
provide certainty for network operators, for edge providers, 
and also for consumers that the Internet will remain the 
innovative engine for economic growth in a minimally regulated 
environment that it is today.
    That concludes my opening statement. I am pleased now to 
recognize the gentleman from Florida, ranking Republican member 
of our subcommittee, Mr. Stearns.
    [The prepared statement of Mr. Boucher follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.001
    
    [GRAPHIC] [TIFF OMITTED] T6579A.002
    
    [GRAPHIC] [TIFF OMITTED] T6579A.003
    
 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, and thank you, Mr. Chairman. And 
let me compliment you on your opening statement. I totally 
agree that if the FCC intends to--your words or their words--
take a light regulatory touch, that they should come up here 
before they start this ``light regulatory touch.'' We have seen 
the government regulations in the past, and they are anything 
but light.
    In light of the fact that 95 percent of the households, 65 
percent of Americans using broadband at home and the number of 
adult residential users are up to 200 million, we don't have a 
deployment or adoption problem. The Internet seems to be 
working pretty good. I am not sure Mr. Jenachowski, the 
chairman of the FCC, needs to do a regulatory touch at this 
time. And he has touched upon some of the things that he would 
like to do in terms of transparency, nondiscrimination. He has 
also touched upon universal service reform.
    Now you have a bill, Mr. Chairman, dealing with universal 
service fund. I don't think the FCC should reach out into Title 
II and to start to regulate dealing with the Universal Service 
Fund. We should allow your bill to become the law of the land 
and certainly have the members of this committee, full 
committee, and Congress, the people of the United States, to 
have some input on this.
    Net neutrality is a term which has various meaning to many 
people. Certainly to me, it means net regulation, so I applaud 
you and your outline this morning of what they intend to do and 
how you are willing to reach out to the FCC and say you intend 
to do these principles. We think, if you will sit down with us, 
we can come up through the subcommittee, mark it up, and try to 
move forward with the bill.
    So under that opening statement and what you said, I think, 
Mr. Chairman, the next step is to have a hearing exactly on 
this comment period about net neutrality and to go through some 
of the principles that the FCC chairman has outlined in the 
press. And we should discuss them with him, and, as you pointed 
out, we can come up with some principles together and move 
forward so that this committee, one, retains jurisdiction over 
the Internet and not let the FCC move into Title II and take 
over with their ``light regulatory touch'' which we all know 
what that means.
    We know that during the campaign, the President promised 
net neutrality, and so, you know, this appears to be moving in 
a political direction in my opinion. I only say this because we 
saw that Mr. Jenachowski at one point said that he was not 
going to do anything and he was going to leave it to our 
committee. And then suddenly he flipped in one week and now 
says he is. And so I assume that there has been a lot of 
pressure on him from the executive branch, and now he wants to 
move out and do this himself.
    You know Congress did not intend for broadband services to 
be subject to common carrier regulations. The FCC's attempt to 
do so could rebuke--was rebuked by the courts, which you 
pointed out earlier, which mean that the FCC will be wasting a 
lot of valuable time because people are going to go out and sue 
the FCC when they come up with their net neutralities. Whereas 
if they did it through our committee, Mr. Chairman, I think we 
would have a bipartisan consensus, which we normally do out of 
this subcommittee, and we could pass something that I think 
would fulfill some of these objectives, certainly in the idea 
of transparency.
    When you go to get an Internet speed from a provider, you 
want to make sure it is five megabytes or whether it is four 
megabytes. You don't want to get on your downloading, 
uploading, and find out it is less than one megabyte. So that 
is important, and some of the anti-discriminatory is civil 
rights and for disabilities. And some of that, I think, is 
good. But I think the point you have made this morning is that 
we are willing to reach out and develop the consensus 
principles from industry and through the FCC and to move 
forward together in this.
    Towards that end, I introduced a bill, Mr. Chairman, H.R. 
5257, which basically is a way for us to say to the FCC prove 
there is market failure that you need these things. I ask the 
FCC in my bill to conduct a rigorous market and cost/benefit 
analysis before imposing any network neutrality rules. They 
should have to evaluate whether any provider has market power, 
taking into consideration the cross-platform competition among 
wireline, wireless, and satellite providers. The FCC should 
also have to consider whether, as a market failure, whether 
such failure harms consumer and whether regulations are 
necessary to ameliorate the harm to consumers.
    I hope my colleagues on this side of the aisle certainly 
would cosponsor my bill, and I think if we could do that, I 
think we could move forward. And again, Mr. Chairman, I applaud 
you for your opening statement. I am 100 percent behind you, 
and I hope you can convince Mr. Waxman to have a hearing on 
this so that we can have the jurisdiction of the subcommittee 
and the full committee in play before the FCC moves out 
unilaterally. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stearns, and let me 
say that I will look forward to working with you and all 
interested parties. To clarify, nothing that I said was 
critical of any step taken by the FCC to this point in time. I 
simply want to point out that there is another path open, and 
if broadband providers in particular believe that it is more 
desirable now for Congress to act, our door is open for 
conversations.
    The gentleman from California, Mr. Waxman, chairman of the 
full committee, is recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, for calling 
this hearing so that we could have an opportunity to talk about 
all the things on our minds in the area of telecommunications. 
Our committee is interested in this hearing and other hearings. 
We are open for business, and we will be happy to review 
different ideas.
    But the idea for today is the question of a National 
Broadband Plan for greater broadband adoption. And I would like 
to first welcome two Californians on our panel. Rachelle Chong 
is here on behalf of California's Chief Information Office, and 
Rivkah Sass is here on behalf of Sacramento Public Library 
System. Thank you both for being here.
    At our last hearing, I mentioned the importance of 
broadband deployment to America's future. Today we will hear 
testimony about efforts and proposals designed to address the 
other side of the broadband equation, broadband adoption. To 
put a number on just how important broadband adoption is, 
according to the Broadband Plan, 62 percent of American workers 
rely on the Internet to perform their jobs. The Bureau of Labor 
Statistics predicts that jobs dependent on broadband will grow 
by 25 percent over the next eight years or two and a half times 
faster than the average growth across all occupations and 
industries.
    So when we talk about addressing adoption barriers, we are 
talking about addressing barriers to future economic growth and 
job growth. The largest barrier identified by the broadband 
plan is cost. The plan recommends addressing the cost barrier 
in part by expanding the Universal Service Fund's Lifeline and 
Linkup Program for low-income consumers.
    Congresswoman Matsui has long recognized that expanding 
Lifeline and Linkup is an important common sense approach to 
encourage broadband adoption. To that end, in September of last 
year, she introduced H.R. 3646, The Broadband Affordability 
Act, and I support her legislation and commend her for her 
leadership on this issue.
    In addition to costs, the plan identified a lack of digital 
literacy as a barrier to adoption. The plan recommends 
promoting digital literacy through volunteer and other efforts 
to train those who need and want help. These proposals are 
worth pursuing. If we are going to take full advantage of the 
benefits that broadband offers for the country, we will have to 
closely examine these two major issues for consumers: cost and 
digital literacy.
    And I want to thank you again, Mr. Chairman, for holding 
this hearing and our witnesses who are here today for being 
prepared to give us the benefit of their views.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.004
    
    [GRAPHIC] [TIFF OMITTED] T6579A.005
    
    Mr. Boucher. Thank you very much, Chairman Waxman. The 
gentleman from Texas, Mr. Barton, the ranking Republican member 
of the full committee, is recognized for five minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I am going to submit 
my statement for the record. I will just say that I am troubled 
by what the FCC put out last week. I don't think we need to 
regulate the Internet, and with all due respect to my friends 
on the majority side, I don't think we need a government 
program to get more broadband deployment.
    Ninety-five percent of American households have access to 
it, and you can question that 5 percent that don't are 
generally people that live in very rural areas. My guess is 
they live in rural areas because they want to, and it is at 
least possible that they don't really want all the encumbrances 
and accoutrements of the modern Internet age. So even if we 
force it on them, they probably wouldn't take it.
    Now, obviously there are some that would if it were 
available, but we have a situation where the number of people 
that have Internet capability in their homes have gone from 8 
million to 200 million people. It is similar to what we went 
through in the '50s. You know televisions weren't mandated by 
federal television policy, and yet there were more televisions 
in people's homes by the 1970s than there were telephones where 
we had a regulated system for telephone service and spent lots 
and lots of money.
    The broadband plan that the FCC put out by itself, Mr. 
Chairman, apparently costs $20 million. That is $20 million 
that could have gone to some other purpose. You know the only 
saying in rural Virginia, Mr. Chairman, is the same as it is in 
Texas. If it is not broke, don't fix it. We have a broadband 
deployment plan right now. It is called free enterprise.
    So I appreciate our witnesses being here. I am sure you all 
are bright, young people and going to give us the benefit of 
wisdom which we don't have. But this is one problem that--it is 
a solution, Mr. Chairman, looking for a problem that I don't 
believe exists. So put me down as skeptical.
    Mr. Boucher. Thank you very much, Mr. Barton. So noted. The 
gentlelady from California, Ms. Matsui, has put forward a 
proposal to expand the Lifeline and Linkup programs in order to 
assist broadband adoption, and I join with Chairman Waxman in 
commending her for her leadership on that matter, and she is 
now recognized for five minutes--for two minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you, Chairman Boucher. Thank you for 
calling today's hearing. I would like to also welcome our 
witnesses. I would especially like to welcome Rivkhah Sass who 
also is one of my constituents and director of the Sacramento 
Public Library Authority. She has done an outstanding job 
modernizing the Sacramento Public Library system and has been a 
leading advocate for expanding fast speed broadband access to 
anchor institutions in our committee. I would also like to 
welcome another Californian, Rachelle Chong.
    Although there is a lot of talk today about the FCC, I 
believe there is broad agreement on both sides of the aisle on 
this committee that broadband adoption is critical to our 
future economic well-being and security. In today's economy, 
the Internet has become a necessity, not a luxury. If you don't 
have it, you are simply at a competitive disadvantage.
    Unfortunately millions of Americans, particularly in these 
tough economic times, simply cannot afford the high cost of in-
home broadband service and are on the wrong side of a digital 
divide. Several prominent studies by PEW, PPI California, and 
the FCC have strongly suggested that broadband adoption rates 
are largely associated with income levels and the high costs of 
broadband services.
    In fact, the FCC found that 28 million Americans do not 
subscribe because of affordability barriers. Last September I 
did introduce The Broadband Affordability Act that would expand 
the Universal Service Fund Lifeline Assistance program for 
universal broadband adoption.
    And I certainly appreciate Chairman Waxman and Chairman 
Boucher's supportive views along with many colleagues on this 
subcommittee who cosponsored my proposal. It will ensure that 
all Americans living in urban and rural areas will have access 
to affordable broadband services. I applaud the FCC for 
including as a central recommendation in the National Broadband 
Plan. And it is my hope that any reforms to USF address 
broadband affordability barriers.
    I also believe, as Rivkah has stated in her written 
testimony, that anchor institutions play a critical role in 
providing access to broadband services. Last September, I along 
with Representatives Eshoo and Markey urged NTIA to prioritize 
second round recovery act funding for anchor institutions 
broadband adoption projects.
    I do look forward to working with my colleagues on ways to 
continue to increase broadband adoption rates in this country, 
and I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Ms. Matsui. The gentleman 
from Illinois, Mr. Shimkus, is recognized for 2 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. Also put me down as 
skeptical about the FCC engaging in regulating the Internet. I 
venture that it will also go into taxation, and we all have 
gotten the emails about taxing the Internet. And they are not 
favorable, and I think that is where we will be heading if we 
allow the FCC to move in that direction.
    I appreciate Ms. Chong being here. She has testified before 
the committee before, and I use her testimony and her comments 
and to paraphrase--and you can correct me when you get a 
chance--was basically you need the map before you send money. 
And that is the most efficient way. I have used that numerous 
times. It shows how testimony is important. And that is one 
part of our frustration with the billions of dollars that have 
gone out and may not be appropriate if you are not--if we don't 
identify the real need.
    And we have had this argument. You know I don't think it 
was settled from the last hearing. I don't think we have a 
definition of what is underserved. I don't think we are really 
effectively appreciating the unserved areas. And with all due 
respect to those people who run anchor institutions, they may 
have three different choices of high-speed Internet 
connectivity, and there are areas of the country that are left 
out.
    And I will give an example. We also have Ms. Taylor here 
from the connect issue, and here is a map of southern Illinois. 
You all can't see it, but it is all colorful, and it highlights 
all these things. And the real problematic areas are the yellow 
ones or the tan ones here. No service, nothing, nada, zip. And 
we are worried about providing high-speed access to libraries 
in the city of Chicago? And our taxpayer dollars are going 
there versus just ensuring that some areas in our country have 
some high-speed Internet service. And that is the frustrating 
thing.
    The second frustrating thing is we also are incentivizing 
broadband deployment in competition with services that have 
already been deployed. I also want to--and I will stop on this, 
Mr. Chairman. Time has gone quick. Is encourage people to look 
at Congressional Quarterly's last publication, and the author 
is Keith Parent. I don't know if he is over there, but in June 
2000, 34 percent of people had dial-up, 3 percent had 
broadband. April 2009, 7 percent had dialup, 63 percent had 
broadband.
    The market works. We need to incentivize the market to 
reach the unserved. Anything else we are doing is wasting money 
and wasting time. Thank you, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you, Mr. Shimkus. The gentleman from 
North Carolina, Mr. Butterfield, is recognized for 2 minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, for 
holding this hearing and thank the witnesses for their 
testimony today. Mr. Chairman, put me down as supportive of 
this initiative. I think it is very appropriate. While we can 
all understand the benefit and value of broadband cost, 
literacy and relevance, particularly in poor and minority 
communities, there are barriers that have often been too great 
to overcome.
    In fact, more than 66 percent of the so-called non-adopters 
are those individuals that have access to broadband but decline 
to subscribe have cited the cost of it. And so I am somewhat 
disappointed that the ranking member believes that there are 
some in rural communities who do not want to subscribe to 
broadband, and that may be so. But there are some in urban 
communities as well.
    A recent study found that 22 percent of minorities lack the 
requisite knowledge and skills necessary to use the Internet. 
Nearly 50 percent of those are African-Americans, and they said 
that they do not believe that the content available on the 
Internet is relevant to them.
    I represent the fourth poorest district in America, one-
half of which is African-American. Many of my constituents are 
struggling to find work and pay for prescription drugs and 
utility bills and the like. And the notion of purchasing a 
computer, setting it up, and paying the monthly fee simply 
would not cross their mind. And that is why I was particularly 
excited to learn about the BET Network's collaborative, whose 
goals are to address and overcome the barriers that prevent 
minority communities from experiencing the full benefits of 
broadband.
    BET will support community-based centers that provide free 
access to people who need them, provide community outreach and 
training programs, and create interactive programming and 
online life portal that will provide topical, relevant 
information specifically for minority communities. BET, Mr. 
Chairman, and their partners have submitted a round two 
application for B top funds, and I sincerely hope that NTIA 
sees its potential for addressing the needs of unserved and 
underserved communities.
    Minority groups, perhaps more than any other, have the most 
to gain from universal broadband adoption. If the barriers 
remain in place, the digital divide will only widen, and more 
people will be left forever behind.
    Finally, I must also mention that I am deeply concerned 
about reclassifying broadband from Title I to Title II. In 
doing so, the FCC risk adding more barriers to adoption by 
discouraging private network deployment and expansion. If the 
FCC moves any further in this direction, I believe Congress 
must act, and I know many of my colleagues share the same 
concern.
    Thank you, Mr. Chairman, for allowing me to go over. This 
concludes my remarks.
    Mr. Boucher. Thank you very much, Mr. Butterfield. The 
gentleman from Ohio, Mr. Latta, is recognized for 2 minutes.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Thank you very much, Mr. Chairman, Ranking 
Member Stearns. Thank you for holding this subcommittee hearing 
on the National Broadband Plan and the adoption. Today 
broadband, as has been stated a little earlier, is available in 
95 percent of those households with just 67 percent of those 
household subscribing. According to the Connected Nation's 2009 
research, the number is slightly lower in my home state of Ohio 
as well as there is in Tennessee with only 60 percent of 
household in these two states adopting service in their homes.
    The number of resident users is up to 200 million from 8 
million just 10 years ago as has also been pointed out. Under 
the NBP, the survey found that 36 percent of the nonadopters 
cite cost as the primary barrier to the adoption at home.
    The government's nonregulatory approach has helped the 
private sector make broadband available in 95 percent of the 
country. Many industry stakeholders have programs available to 
assist with adoption, and private industry has invested 
billions of their own capital to expand services and assist 
with that adoption.
    Additionally, the federal government needs to exercise 
fiscal restraint, and there should be no further tax dollars 
spent on any new government program for adoption when there 
already has been funding allocated for these purposes. Through 
the tools already available to the FCC for adoption through the 
NBP, private partnerships will be part of the equation. Groups 
such as Connected Nation have made important strides in 
improving broadband education and adoption.
    As in many parts of Ohio, as in my district, which is rural 
in parts, there are many individuals who lack broadband 
adoption. As the Connected Nation policy brief shows, rural 
residents and businesses lag behind that of their non-rural 
counterparts.
    In order to ensure that these residents and businesses 
reduce the barriers to adoption, the tools already accessible 
to the government should be used for building awareness about 
the benefits of broadband services and the benefits that it 
brings to the residents and businesses.
    In Ohio, Connected Nation has been a key component of 
raising awareness at the grass roots level employing public and 
private partnerships across the state. Adoption is the report 
in issue. I will look forward to working with the subcommittee 
on these issues. I have looked through the funds that have 
already been allocated through these efforts and through public 
and private partnerships. There will be sufficient progress 
made to really improve adoption.
    However while the FCC is focusing on these issues relating 
to adoption which will bring jobs and economic development to 
rural areas, I believe it is counterproductive for it to focus 
on the policy areas where the FCC has questionable authority.
    I have very serious concerns with the recent announcement 
of the FCC to reclassify broadband services as a phone service 
under Title II of the Communications Act. This will have a 
detrimental effect on the economy and free market principles of 
our Nation's economy. I urge the FCC to immediately stop this 
action.
    And with that, Mr. Chairman, I thank you very much and 
yield back.
    [The prepared statement of Mr. Latta follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.006
    
    [GRAPHIC] [TIFF OMITTED] T6579A.007
    
    [GRAPHIC] [TIFF OMITTED] T6579A.008
    
    Mr. Boucher. Thank you very much, Mr. Latta. The gentleman 
from Nebraska--Mr. Griffith has returned. Mr. Griffith, are you 
prepared for your statement? You are recognized for 2 minutes.

OPENING STATEMENT OF HON. PARKER GRIFFITH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Griffith. Thank you, Mr. Chairman. I would like to 
thank the chairman and ranking member for calling this hearing 
today and also thank all the witnesses for your willingness to 
testify before this committee.
    The National Broadband Plan suggests that roughly 80 
million Americans do not have access at home. Broadband access 
is vitally important to our democracy and to public safety. It 
is becoming the main gateway for Americans to apply for jobs, 
apply to colleges, and more and more people are using it as 
their main source of information and news throughout the day.
    The FCC's broadband plan also cites that some segments of 
the population, mainly low-income households, minorities, 
seniors, rural residents, and others are being left behind. I 
recognize the importance of broadband, and over the last two 
decades, we have seen a spike in access to now over 200 
million.
    With respect to this hearing, I believe we need to ask 
ourselves what can policymakers do to actually promote 
broadband adoption. Policies in the National Broadband Plan 
such as reforming the USF and pushing spectrum out to those who 
are delivering broadband consumers are areas we can work on. 
However, I was concerned to learn of Chairman Genachowski's 
recent intention regarding the reclassification. This third way 
being proposed will suppress investment and the very innovation 
that has brought us to the point where we are today.
    I know and I feel certain with the suggestions of the 
chairman and ranking member that we will be able to reach an 
agreement, and a good bill could be developed and presented to 
the Congress.
    I know this hearing is on adoption and not net neutrality 
or reclassification. Nonetheless, adoption is certainly an 
important issue, and I am glad we are holding this hearing 
today. Again I thank you for your time today, and I will look 
forward to hearing your testimony and return the balance of my 
time. Thank you.
    Mr. Boucher. Thank you, Mr. Griffith. The gentleman from 
Vermont, Mr. Welch, is recognized for two minutes.
    Mr. Welch. I just want to thank you for calling the 
hearing. I look forward to the testimony. Incredibly important 
issue. Got to work out the balance between making access 
available to everyone, but also having the wherewithal to 
invest so that we can build up the network. I yield back the 
balance of my time.
    Mr. Boucher. Thank you very much, Mr. Welch. The gentleman 
from Nebraska, Mr. Terry, is recognized for 2 minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, and thank you for your 
comments stating the necessity to move our bill. It was just a 
month ago when the FCC was admonished by the D.C. Circuit for 
attempting to exceed the authority provided to them by this 
Congress.
    It is beyond disturbing to me that rather than learn from 
that ruling, the FCC is now apparently about to embark on an 
even more egregious abuse of its statutory authority which will 
no doubt only result in years of litigation while also 
preventing future investment in this private sector. They have 
definitely encroached into our legislative arena.
    I would like to thank our ranking member Mr. Stearns for 
introducing his bill to block the FCC from regulating basic 
aspects of broadband Internet services unless the agency first 
reports to us that there is a market failure. I am the 
cosponsor of that bill.
    As we all know, Congress specifically differentiated 
between information services and telecommunication services in 
the Communications Act because Congress intended for 
information services to be widely regulated and for 
telecommunications services to be subject to greater scrutiny. 
This is because there was a presumption in 1996 that 
telecommunications services were provided largely in a monopoly 
environment.
    It concerns me that broadband is now going to be regulated 
by the FCC, and whether it is a heavy touch or light touch, I 
am not sure we know the difference. We do know that this will 
allow or under the FCC's power grab and their intended use of 
that power that the Internet will be regulated by them. 
Congress needs to stand up, take back its power from the FCC, 
and deal with this issue. I yield back our time.
    Mr. Boucher. Thank you, Mr. Terry. The gentlelady from 
California, Ms. Eshoo, is recognized for 2 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for continuing what I 
think is this essential review of the FCC's National Broadband 
Plan. We are examining today the impediments to full deployment 
and the issues that are preventing some Americans from using 
broadband while others seem to reap all of its benefits.
    We know that the primary reason for the digital divide is--
guess what--what is usually at the base of almost anything--
money. Those who have it also have the access. And those that 
don't are left behind. So that is why I am cosponsoring 
Representative Matsui's bill to extend the Universal Service 
Fund's Lifeline and Linkup programs to broadband users. We need 
to move ahead to ensure that our neediest Americans receive 
this essential service.
    There are some concepts and ideas for closing the digital 
divide that are barely touched upon in the National Broadband 
Plan. The state of California, for instance, is a proponent of 
smart housing broadband deployment to give people in public 
housing equal Internet access, and I expect that Rachelle 
Chong, who has done so much to improve access in California, is 
going to talk about this in her testimony.
    I think we also need to focus on two other parts of the 
entry problem: education and the perceived lack of potential 
users--lack of relevance to potential users which are actually 
interconnected. And I am very pleased that the director of 
Sacramento's public library system is here to talk to us about 
anchor institutions.
    So all in all, Mr. Chairman, I don't think that we can 
allow anything to stand in the way of bringing all of our 
citizens into the broadband world. Our economic, educational, 
and social future really depends upon our success in this 
effort. So I look forward to hearing from the distinguished 
panelists today, and I yield back.
    Mr. Boucher. Thank you, Ms. Eshoo. The gentlelady from 
Tennessee, Ms. Blackburn, is recognized for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and welcome to our 
witnesses. We are looking forward to hearing from you. I will 
have to say with 95 percent deployment and 67 percent adoption 
rates, I think that any rational observer would agree that we 
do not have a significant deployment or adoption problem in 
this country.
    That being said, I am glad we are always looking for ways 
to improve the progress. I think that the debate is going to 
continue around does the government need to be patrolling that, 
or is it best left to the private sector?
    Now I will say that I am pleased that the adoption--
increased adoption rate over the past three years in Tennessee 
has outpaced the national average by 2 percentage points, and 
we continue to see great gains. And innovation and job creation 
are a big part of this, and we would like to make certain that 
that remains. It is important that we look at issues such as 
cost and digital literacy, but we must keep focused on what is 
really important, and that would be maintaining a system and an 
infrastructure that is free from government overregulation.
    I do have my legislation, H.R. 3924, that would block the 
FCC from implementing their version of net neutrality, or as I 
like to term it fairness doctrine for the Internet. We must 
continue to promote job innovation and job creation in the 
telecommunications industry. For this reason, I am excited to 
explore a little deeper what exactly the FCC could possibly be 
thinking and how they rationalize this ill-conceived notion of 
reclassifying the Internet under Title II of the 
Telecommunications Act.
    I don't understand why we want to disincentivize Internet 
service providers from creating those jobs and from maintaining 
those networks at a time when they are spending $60 billion 
annually investing in it. And we are talking about the loss of 
jobs, and unemployment is at 9.9 percent. This is so 
counterintuitive it makes one wonder what the real motive is.
    Thank you for the hearing. Welcome the witnesses.
    Mr. Boucher. Thank you, Ms. Blackburn. The gentleman from 
Ohio, Mr. Space, is recognized for two minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thank you, Mr. Chairman, for holding this 
hearing, and I would like to thank our witnesses and welcome 
you to the hearing today.
    One of the cruel ironies about broadband adoption is that 
those folks who are most in need of everything that the 
Internet and broadband offer are the least likely to appreciate 
that need. And we see that problem as especially glaring in 
rural Ohio, rural America. And certainly educating the general 
public on the benefits of access is a big part of what we need 
to do, I think, as a Congress and driving policy and certainly 
as an administration in driving policy.
    But for us, the people back in southeastern Ohio, the 
problem, the primary problem remains excess. And recognize that 
awareness is important. Affordability is important. Maintaining 
good quality is important. But none of that matters if we don't 
have access. And access for us means not just creating a 
stronger economic environment, which it will do, but it means 
bridging these gaps that exist between our access not just to 
technology but to health care and education, that the role of 
broadband really is still in its infancy in how it integrates 
with those fields but will, without question, become much more 
predominant.
    I want to thank Connect Ohio and Connected Nation for the 
great work they have done in really overcoming the first 
hurdle, and that is mapping. We need to figure out where we 
have broadband access and where we don't, and Connect Ohio has 
done a terrific job in pinpointing that. And I am proud to say 
that they have been one of the Nation's leaders, and I 
certainly want to thank Ms. Taylor for her reference in her 
testimony to some of the local solutions that are happening in 
counties like Coshocton County where they face some significant 
challenges.
    I look forward to your testimony, and again thank you for 
your hard work on these issues.
    Mr. Boucher. Thank you very much, Mr. Space. The members of 
the subcommittee have had an opportunity to share their views 
with you. Now, we would like to hear your views expressed to 
us. We have five outstanding witnesses this morning, and I will 
simply say a brief word of introduction about each.
    Ms. Carol Mattey is the deputy chief of the Wireline 
Competition Bureau for the Federal Communications Commission 
and participated in the formulation of the National Broadband 
Plan. Ms. Rachelle Chong is the special counsel in the office 
of the chief information officer for the state of California. 
We know her on this subcommittee from her previous tenure as a 
distinguished member of the Federal Communications Commission. 
Ms. Rivkah Sass is the director of the Sacramento Public 
Library System and is also testifying today on behalf of the 
American Library Association, an organization for which I have 
great affection. Mr. Howie Hodges is the senior vice president 
of government affairs at One Economy, and Ms. Laura Taylor is 
the chief policy officer of Connected Nation, which played a 
major role in constructing broadband maps across the United 
States.
    We welcome each of you, and without objection, your 
prepared written statements will be incorporated in our record. 
We would welcome your oral summaries and ask that you keep 
those to approximately five minutes. Ms. Mattey, we will be 
happy to begin with you.
    Hold that microphone as close as you can, and be sure to 
turn it on. I think it is off. Very good.

STATEMENTS OF CAROL MATTEY, DEPUTY CHIEF, WIRELINE COMPETITION 
  BUREAU, FEDERAL COMMUNICATIONS COMMISSION; RACHELLE CHONG, 
  SPECIAL COUNSEL, CALIFORNIA OFFICE OF THE CHIEF INFORMATION 
   OFFICER; RIVKAH SASS, DIRECTOR, SACRAMENTO PUBLIC LIBRARY 
 SYSTEM; C. HOWIE HODGES II, SENIOR VICE PRESIDENT, GOVERNMENT 
 AFFAIRS, ONE ECONOMY; AND LAURA TAYLOR, CHIEF POLICY OFFICER, 
                        CONNECTED NATION

                   STATEMENT OF CAROL MATTEY

    Ms. Mattey. Chairman Boucher, Ranking Member Stearns, 
members of the subcommittee, thank you for the opportunity to 
testify today about the National Broadband Plan's 
recommendations to promote broadband adoption and utilization. 
Through the Recovery Act, Congress called on the FCC to develop 
a plan that would ensure that all people in the United States 
have access to broadband capability and establish benchmarks 
for meeting that goal, include a detailed strategy for 
achieving affordability and maximum utilization of broadband 
infrastructure and services, and include a plan for the use of 
broadband in advancing consumer welfare, civic participation, 
education, health care, public safety, job training, economic 
growth, and other national purposes.
    In response, the plan includes a goal that every American 
should have affordable access to robust broadband service and 
the means and the skills to subscribe if they choose. The plan 
outlines a pathway to increase home broadband adoption rates 
from 65 percent today to higher than 90 percent by 2020, and to 
narrow significantly the differences among demographic groups.
    This is an important and ambitious goal. It took us 30 
years to get from roughly 60 percent to 90 percent adoption for 
telephony. We are proposing to cover just as much ground in a 
third of the time. The plan sets forth a number of 
recommendations on how to achieve this goal guided by several 
overarching principles.
    First we must focus on broadband adoption in the home. 
Public access, though essential, is not a substitute for home 
access, and the Nation will not realize the full benefits of 
broadband unless policies focus on increasing adoption in the 
home.
    Second, adoption alone is not the end game. Getting people 
online is a critical first step, but ultimately the value of 
broadband to an individual depends on how fully it is utilized.
    And finally, adoption programs should be targeted, local, 
measurable, able to evolve as technology evolves, and 
collaborative. Targeted solutions address specific barriers to 
adoption and direct resources at populations less likely to be 
online. To address the cost barrier, the plan recommends 
expanding the FCC's existing low income universal service 
program known as Lifeline and Linkup to support broadband. To 
address digital literacy barriers, the plan calls for creation 
of a digital literacy core, bolstering the capacity of 
libraries and community centers, and the creation of an online 
skills portal.
    And to address relevance, the plan recommends partnerships 
between the public, private, nonprofit, and philanthropic 
sectors which can help provide comprehensive solutions and who 
can provide targeted outreach and awareness campaigns.
    The plan also includes several recommendations to address 
the unique difficulties for people with disabilities and in 
recognition of the sovereign status of tribes, which are 
described further in my written testimony. Local solutions are 
essential because tribal, state, and local governments can and 
should develop and implement specific programs to meet their 
unique needs.
    The decision to subscribe is an individual one, but the 
path to full adoption unfolds in homes, libraries, schools, and 
community organizations in neighborhoods around the country. 
Public access sites are essential to building the social 
infrastructure needed to promote adoption and utilization in 
the home. To encourage local solutions, the plan recommends 
continuing federal support for state and local broadband 
initiatives under the Broadband Data Improvement Act.
    To ensure sustainable adoption, program outcomes and 
policies should be measured and should evolve as technology 
evolves. Unfortunately, despite over a decade of effort focused 
on bridging the digital divide, data of what works best to 
stimulate adoption and utilization are scarce. The plan 
suggests that future appropriations for broadband adoption 
include specific requirements and funding for third-party 
evaluations and assessment.
    Finally, to catalyze additional collaboration, the plan 
recommends establishment of a national best practices 
clearinghouse, which can help all stakeholders learn from 
current investments and from each other to inform future 
policies. The FCC has already started implementing those 
recommendations within its jurisdiction.
    Just last week, the FCC adopted an order asking the 
federal-state joint board on universal service to prepare 
recommendations regarding the commission's eligibility, 
verification and outreach rules for both the Lifeline and 
Linkup program. We also plan to host a roundtable discussion to 
discuss potential pilot programs to identify the most efficient 
and effective long term broadband support mechanism for low-
income Americans.
    Many significant adoption recommendations will require 
action by Congress and other governmental and nongovernmental 
stakeholders. I and others at the FCC look forward to providing 
additional assistance. Thank you.
    [The prepared statement of Ms. Mattey follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.009
    
    [GRAPHIC] [TIFF OMITTED] T6579A.010
    
    [GRAPHIC] [TIFF OMITTED] T6579A.011
    
    [GRAPHIC] [TIFF OMITTED] T6579A.012
    
    [GRAPHIC] [TIFF OMITTED] T6579A.013
    
    Mr. Boucher. Thank you, Ms. Mattey. Ms. Chong.

                  STATEMENT OF RACHELLE CHONG

    Ms. Chong. Good morning. It is a great pleasure to be back 
here in Washington, my old stomping grounds. It is even more of 
a pleasure that today your topic is broadband adoption, one 
that is very pivotal to bridging the digital divide.
    The digital divide cannot be closed without California. We 
have 44,000 square miles of unserved area, the size of 
Kentucky. We have 1.4 million rural residents without access, 
the population of Maine. We have 12.9 million urban residents 
not connected, the population of Illinois. We have 1.9 million 
people with disabilities not connected, the population of New 
Mexico. We have 68,000 Native Americans not connected, the 
population of Alaska. So the number of unconnected Californians 
on the other side of the digital divide is the equivalent of 
having five other states within our boundaries.
    And this is why California has been working with great 
focus and with great effort on broadband adoption since 2006. 
We were very early to develop a cohesive policy to spur 
broadband investment in our state. Beginning in 2006, our 
governor issued a broadband executive order and formed a 
taskforce. We first performed broadband mapping, which was 
important to find out where broadband was and where it wasn't. 
We then had a legislature who passed a digital infrastructure 
and video competition act. They let telephone companies offer 
video. They allowed cable companies to have a statewide video 
franchise license.
    The PUC then attacked the access problem. We formed a--
excuse me. We allowed our telephone companies to have updated 
rules so that they could compete with their competitors, which 
are now cable, satellite, and wireless.
    So in summary, California set the table for our state's 
broadband hunger. So we attacked two problems. We started with 
access, and then we went to adoption and awareness. I won't 
talk much about infrastructure today, but I will say that we 
had a state infrastructure program to fill in unserved and 
underserved areas.
    Further we went after a FCC rural pilot program for health 
care. We got a $22 million grant. We have matched it with $8 
million of nonfederal funding, and we now are beginning 
construction this summer on a statewide broadband telehealth 
network. We have 863 sites already authorized to push broadband 
out into our most rural areas.
    Now, if you build it, they will come. It might be true in 
baseball, but it sure isn't true in adoption. We know that even 
though we can get broadband access to our residents, that some 
of them won't use it. We formed a nonprofit organization in 
2006, the California Emerging Technology Fund. And I brought 
copies of their annual report, which is very instructive, and I 
urge you to pick up a copy. They have been focusing on 
broadband adoption. They figured out who is on the wrong side 
in my state, Latinos, African-Americans, low-income families, 
seniors, people with disabilities, people who live in rural and 
remote counties. And then we focused precisely on those 
unconnected groups using a number of strategies.
    One, we got our civic leaders engaged. They have been going 
out and talking to our chambers of commerce, our local mayors, 
the librarian, anyone who is a leader. And we formed 
consortiums in the rural regions and the urban regions to 
aggregate demand, to encourage broadband deployment in their 
areas, and to support important applications that push 
broadband out, telemedicine, tele-education, e-government.
    Second, we gave money out using what we call venture 
philosophy engagement. We chose 52 governmental--I am sorry, 
nonprofit and community-based organizations who already had 
expertise in technology. And we asked them to reach in to those 
vulnerable communities and grow their programs. We hold these 
groups to very rigorous measurement and evaluation standards. 
They meet once a year with CETF, and we told them every program 
they had must be accessible to people with disabilities.
    Our third strategy is public awareness. We have been using 
a big public awareness campaign to enhance awareness of 
broadband. In short, why broadband makes your life better. Our 
major effort here is a get connected campaign. It increases 
adoption among low-income persons.
    Our fourth strategy was public policy initiatives. Our 
major initiative was school to home. We have launched this 
program, which is a statewide program to close the achievement 
gap in the digital divide. We are going to take the worst 
performing 500 middle schools in California. We will provide a 
small laptop computer to every child who cannot afford a 
computer. They are encouraged to take it home so that they will 
teach their parents how to use and connect to the Internet. 
They are going to also train the parents, six hours mandatory, 
so that they understand cybersecurity issues and how to connect 
to the parents and the principal of the school.
    We will be supporting the teachers by 24 hours of training 
on how to integrate the computer into education, and we will 
also be training the principals on how to access a content-rich 
Web site with educational materials. This is a very ambitious 
program, but we have two pilots already running in California, 
in Los Angeles and Riverside. We hope to start 20 more schools 
in the fall and eventually reach all 500 low performing 
schools.
    I wanted to also quickly mention smart housing. We think 
this is an area that unfortunately was left out of the FCC 
national plan. What we mean by smart housing is a publicly-
funded housing development project that possesses an 
independent, advanced-communications network which will drive 
economies of scale to bring the residents in those small houses 
broadband at a reduced cost.
    We have developed in California a model policy, and we hope 
that this will be available to the federal agencies. Thank you 
for inviting me.
    [The prepared statement of Ms. Chong follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.014
    
    [GRAPHIC] [TIFF OMITTED] T6579A.015
    
    [GRAPHIC] [TIFF OMITTED] T6579A.016
    
    [GRAPHIC] [TIFF OMITTED] T6579A.017
    
    Mr. Boucher. Thank you very much, Ms. Chong. Ms. Sass.

                    STATEMENT OF RIVKAH SASS

    Ms. Sass. Good morning, Chairman Boucher, Ranking Member 
Stearns and----
    Mr. Boucher. Please pull that microphone just a little bit 
closer. There we go.
    Ms. Sass. Thank you for the opportunity to testify on 
behalf of the American Library Association, the oldest and 
largest library association in the world with more than 65,000 
members. Public libraries serve every age group and every skill 
level in our source of life-long learning. In 70 percent of our 
communities nationwide, we are the only provider of no-fee 
Internet access. In rural areas, that number is closer to 80 
percent.
    In California last year alone, there were 38 million 
Internet sessions in public libraries on 18,000 computers. That 
is one session for every resident in the state. School, public, 
and academic libraries across the country really serve as first 
responders in providing Internet access. Even with a 10-megabit 
connection, sometimes the Sacramento Public Library demands 
surpass our capacity. Without sufficient broadband 
connectivity, it is difficult for us to serve our patrons. 
Without a healthy broadband ecosystem and sufficient 
connectivity, libraries and other anchor institutions would not 
be able to continue our work to improve broadband adoption.
    I want to acknowledge the critical role that the Erate 
program has played for libraries. I thank the members of the 
subcommittee for your support of the Erate program, which is 
essential to school and public libraries. Without the discounts 
that we receive, I honestly do not know how Sacramento Public 
Library would cope. We really depend on this program.
    Information is useless unless one knows how to access and 
apply it. Access to high-speed broadband alone does not 
guarantee that our Nation would be equipped to thrive in a 
global information society. The FCC plan acknowledges this 
principle, noting the importance of digital literacy as a 
necessary life skill, much like the ability to read and write.
    We know that access to broadband is a basic requirement for 
social and economic inclusion in our democratic society. 
Improving broadband adoption requires the development of basic 
digital literacy skills, something central to the mission of 
public libraries. We are viewed as trust intermediaries in our 
communities, whether rural, suburban, or urban, and we are 
ideally situated to help shape and lead national efforts to 
foster and increase digital literacy.
    Public librarians play a key role in shrinking the digital 
divide by providing digital literacy training. We offer no-fee 
Internet classes ranging from email basics to job searching 
skills, and genealogy. In these tough economic times, the most 
powerful example of what motivates individuals to come to the 
library seeking digital literacy skills has been the search for 
employment.
    Library staff at our Rancho Cordova branch library recently 
helped a job seeker by helping him update his resume, upload it 
to an employer's Web site. When he called to verify that they 
had received his application, they offered him a job on the 
spot. And he started the next day doing electrical 
construction. He told us he could not have done it without our 
help, and I know our colleagues in libraries across the country 
could tell you the same story about helping teach these digital 
literacy skills and about providing no-fee access to the 
Internet.
    The truth is librarians are perfectly positioned in our 
communities to shape and implement local, state, and national 
efforts to improve broadband adoption.
    I would like to thank Congresswoman Matsui who introduced 
the Broadband Affordability Act of 2009. Addressing the issue 
of affordability as a barrier to adoption, the bill would 
complement the work that libraries do in teaching digital 
literacy skills.
    I would also like to note that the American Library 
Association supports the recommendations in the National 
Broadband Plan that all Americans develop basic digital 
literacy skills, and we support the development of the digital 
literacy core. We respectfully suggest the subcommittee 
introduce and consider legislation that would authorize and 
support the creation of such a core as recommended in the FCC 
plan. This is something that librarians can really sink our 
teeth into because we want to be leaders in the effort of 
working collaboratively with others to develop the program.
    As a Nation, we must be prepared to compete in work in 
which digital literacy is essential and not a luxury. The 
digital literacy core would infuse in our communities the 
needed resources to increase those skills and improve broadband 
adoption rates in the home. Libraries are already well aware of 
the benefits of having access to the Internet and online 
resources. A digitally literate citizenry will result in a 
workforce that is prepared to meet the challenges of the 21st 
Century global marketplace.
    My colleagues and I thank you for your leadership and 
support. Libraries would not be able to do what we do without 
you.
    [The prepared statement of Ms. Sass follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.018
    
    [GRAPHIC] [TIFF OMITTED] T6579A.019
    
    [GRAPHIC] [TIFF OMITTED] T6579A.020
    
    [GRAPHIC] [TIFF OMITTED] T6579A.021
    
    [GRAPHIC] [TIFF OMITTED] T6579A.022
    
    [GRAPHIC] [TIFF OMITTED] T6579A.023
    
    [GRAPHIC] [TIFF OMITTED] T6579A.024
    
    [GRAPHIC] [TIFF OMITTED] T6579A.025
    
    [GRAPHIC] [TIFF OMITTED] T6579A.026
    
    [GRAPHIC] [TIFF OMITTED] T6579A.027
    
    [GRAPHIC] [TIFF OMITTED] T6579A.028
    
    [GRAPHIC] [TIFF OMITTED] T6579A.029
    
    [GRAPHIC] [TIFF OMITTED] T6579A.030
    
    [GRAPHIC] [TIFF OMITTED] T6579A.031
    
    Mr. Boucher. Thank you very much, Ms. Sass. Mr. Hodges.

                STATEMENT OF C. HOWIE HODGES, II

    Mr. Hodges. Good morning, Chairman Boucher, Ranking Member 
Stearns, and members of the committee. Our interim president 
and CEO Mustafa Maran sends his apologies for not being able to 
join us today as he is in Haiti on a business mission.
    I want to first thank you for this opportunity to speak on 
behalf of One Economy. We are a global nonprofit that leverages 
the power of information and technology to bring low-income 
people into the economic mainstream. I also want to take this 
opportunity to thank the FCC for its bold steps in creating a 
blueprint for broadband adoption within the United States, the 
first Nation Broadband Plan. The FCC should also be applauded 
for one of the most open, transparent and participatory 
processes in creating this plan.
    I also want to applaud Congress and specifically 
Congressman Markey for their vision and leadership in mandating 
that the FCC create the National Broadband Plan. This is a 
critical first step in bridging the digital divide and ensuring 
inclusion for every person in the United States.
    It is a vital step in ensuring the company's economic 
recovery, stability, and broadband and technology are essential 
to economic development today. It is really about the self-
sufficiency of the person.
    For the past 10 years, One Economy has been the leader in 
bringing broadband and more importantly keeping underserved 
communities and unserved communities online. Broadband adoption 
requires a comprehensive approach that mitigates the barriers 
to broadband adoption and maximizes broadband opportunities. It 
requires an investment and a commitment from the community, 
regional and federal government and national as well as local 
corporations.
    At One Economy, we work hand in hand with communities and 
all of the local stakeholders that I mentioned to ensure that 
we are taking action to breaking down these broadband 
technology and adoption barriers in working to bring that into 
place.
    Again, since our inception, we have led the effort, and we 
have connected over 350,000 families. Through our digital 
connectors program, we have engaged youth all across the 
country to be digital ambassadors for technology, and we 
applaud the FCC for expanding that concept in the national 
plan.
    Let me just talk about barriers to adoption. We heard a 
little bit about it this morning, but I want to take a deeper 
dive to talk about some of these barriers. If we are going to 
increase broadband adoption, we have to really recognize that 
the barriers, there are many. One is access. The Internet is a 
powerful 24/7 tool, and it is important for people to have the 
Internet in the home. At One Economy, we work with affordable 
housing developers to bring broadband into the homes of some of 
the country's poorest communities.
    Another barrier is affordability. According to the most 
recent Census Bureau, 76 percent of households earning more 
than $50,000 a year are connected. Only 35 of those homes with 
annual incomes of less than $50,000 have adopted broadband in 
their homes. Through our work, we have given free Internet for 
two years. Low-income residents are willing to invest in 
broadband at a reduced rate.
    The other barrier is digital literacy. Many people do not 
know how to access or to find that information they need once 
they get connected, which segues into another broadband hurdle, 
which is relevant and easy to navigate online tools. The Pew 
Research Center, an Internet in American Life Project states 
that 50 percent of those without in-home broadband believe that 
Internet is relevant to their daily lives.
    We at One Economy have demonstrated the value proposition 
for those currently unconnected, and the platform that the 
proposition includes language preference, literacy 
comprehension, and connection speed, all of which are the 
principle barriers to adoption. Therefore to get people online, 
we not only have to provide affordable access, but we also have 
to provide digital literacy training. And again that is what 
our youth engagement program, Digital Connectors, is all about.
    Finally we must address another major barrier to broadband 
adoption, and that is ensuring that there is 21st Century 
technology to underserved communities. With the recent VTOP 
award, One Economy in partnership with the historic Broadband 
Opportunity Coalition, which is a historic alliance of the 
leading civil rights and policy organizations. They are the 
American Justice Center, the Joint Center for Political and 
Economic Studies, the League of Latin American Citizens, the 
Minority Media and Telecommunications Counsel, the NAACP, and 
the National Council of La Raza, and the Urban League.
    I see my time is about to expire, and so in conclusion, the 
role that the federal government should establish national 
goals and interim benchmarks setting the north star for a U.S. 
progress board. We recommend a creation of a five-year plan 
with clear benchmarks and annual performance assessments. Thank 
you for giving me the time to make my remarks.
    [The prepared statement of Mr. Hodges follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.032
    
    [GRAPHIC] [TIFF OMITTED] T6579A.033
    
    [GRAPHIC] [TIFF OMITTED] T6579A.034
    
    [GRAPHIC] [TIFF OMITTED] T6579A.035
    
    [GRAPHIC] [TIFF OMITTED] T6579A.036
    
    [GRAPHIC] [TIFF OMITTED] T6579A.037
    
    [GRAPHIC] [TIFF OMITTED] T6579A.038
    
    Mr. Boucher. Thank you, Mr. Hodges. Ms. Taylor.

                   STATEMENT OF LAURA TAYLOR

    Ms. Taylor. Chairman Boucher----
    Mr. Boucher. And, yes, please pull that as close as you 
can. Thank you.
    Ms. Taylor. Chairman Boucher, Ranking Members Stearns, and 
members of the committee, it is an honor to be here. Thank you 
for the opportunity to discuss broadband adoption within the 
context of the National Broadband Plan.
    Connected Nation is a nonprofit organization that has 
worked for nearly 10 years on the ground with states, local 
communities, consumers, and technology providers to build 
pragmatic public/private partnerships for increased broadband 
adoption and digital literacy for all Americans, both urban and 
rural.
    Our experience and the data that goes along with it shows 
that the Nation's demand gap is significantly larger than the 
supply gap, with supply outstripping demand by between 30 and 
35 percentage points. One striking example of the depth of this 
adoption gap falls in Congressman Gordon's district, Clay 
County, Tennessee, where 94 percent of residents have broadband 
available, yet only 38 subscribe. Connected Nation is currently 
delivering to NTIA broadband data and maps for 13 states and 
territories. And while identifying and fulfilling those supply-
side gaps is essential, our experience in hundreds of American 
communities across the country has taught us that broadband 
adoption stimulation is the key to the ultimate success of any 
effort to fully address the broadband challenge.
    Successful adoption programs in Ohio and in Tennessee and 
in other states demonstrate the need for federal support for 
public/private partnership programs to increase broadband 
adoption as recommended by the National Broadband Plan. In our 
experience, proven programs that drive broadband adoption and 
stimulate private investment are a highly efficient use of 
taxpayer funds, and data show that once someone begins to use 
broadband, they tend to keep it which in turn drives economic 
stimulus across a community.
    Coshocton County, Ohio, in the heart of Appalachia, and in 
Congressman Space's district, is a prime example of effective 
leadership working together for sustainable broadband adoption 
and expansion. In 2008, home broadband adoption in Coshocton 
County was 32 percent, significantly below the state average. 
Connect Ohio's local research revealed that the top barriers to 
broadband adoption in Coshocton County were a lack of interest 
in broadband and a lack of broadband availability.
    To overcome these barriers, county leaders working in 
partnership with Congressman Space and Connect Ohio developed a 
model for broadband expansion using public safety towers and a 
local provider to create jobs and to drive new broadband 
deployment into a large portion of this county.
    In coordination with this effort, the local broadband team 
is developing a countywide awareness and adoption plan centered 
on libraries and community colleges. Connect Ohio has now 
implemented this same model across a number of counties, 
resulting in RFPs for broadband expansion in seven communities 
in the last three months.
    A bit further south, excuse me, in Tennessee, recent data 
show that the public/private efforts of the statewide Connected 
Tennessee program are paying off. In the past three years, the 
growth of home broadband adoption in Tennessee has outpaced 
national growth, as Congresswoman Blackburn mentioned, and 
targeted populations have seen even greater gains. Minorities 
in Tennessee have now surpassed Caucasians in terms of Internet 
use with 84 percent of minority adults in Tennessee reporting 
that they use the Internet. This well exceeds the FCC reported 
national average of 78 percent. Connected Tennessee has proven 
that the key to encouraging adoption is the coordinated 
development of locally relevant broadband applications that 
target the specific needs of each community.
    This is important because converting nonadopters requires 
that intervention go well beyond broadband cheerleading. We 
must demonstrate that a broadband-connected computer provides 
value that will improve the value of life and provide wealth-
creating opportunities.
    Perhaps one of the most powerful case studies comes from 
Congresswoman Blackburn's district in Perry County, Tennessee, 
where the unemployment rate is one of the highest in the 
country. Through the Connected Tennessee Computers-For-Kids 
program and a donation from the AT&T Foundation, Intel-based 
computers and printers were placed in a summer youth program to 
create jobs of high school students, students who work to 
improve web-based tourism and economic development for the city 
of Lyndon.
    After the summer program ended, the computers were 
transformed into a digital factory creating permanent 
technology job in Perry County. Broadband adoption in Perry 
County has grown by 175 percent since 2007.
    We look forward to continuing to work with Congress, the 
federal government, states, and thousands of local champions 
across the country who understand and share our mission for 
universal digital inclusion across America. Thank you for the 
opportunity to testify today, and I look forward to answering 
any questions that the committee members have.
    [The prepared statement of Ms. Taylor follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.039
    
    [GRAPHIC] [TIFF OMITTED] T6579A.040
    
    [GRAPHIC] [TIFF OMITTED] T6579A.041
    
    [GRAPHIC] [TIFF OMITTED] T6579A.042
    
    [GRAPHIC] [TIFF OMITTED] T6579A.043
    
    [GRAPHIC] [TIFF OMITTED] T6579A.044
    
    [GRAPHIC] [TIFF OMITTED] T6579A.045
    
    [GRAPHIC] [TIFF OMITTED] T6579A.046
    
    [GRAPHIC] [TIFF OMITTED] T6579A.047
    
    [GRAPHIC] [TIFF OMITTED] T6579A.048
    
    [GRAPHIC] [TIFF OMITTED] T6579A.049
    
    [GRAPHIC] [TIFF OMITTED] T6579A.050
    
    [GRAPHIC] [TIFF OMITTED] T6579A.051
    
    [GRAPHIC] [TIFF OMITTED] T6579A.052
    
    [GRAPHIC] [TIFF OMITTED] T6579A.053
    
    [GRAPHIC] [TIFF OMITTED] T6579A.054
    
    [GRAPHIC] [TIFF OMITTED] T6579A.055
    
    [GRAPHIC] [TIFF OMITTED] T6579A.056
    
    [GRAPHIC] [TIFF OMITTED] T6579A.057
    
    [GRAPHIC] [TIFF OMITTED] T6579A.058
    
    [GRAPHIC] [TIFF OMITTED] T6579A.059
    
    [GRAPHIC] [TIFF OMITTED] T6579A.060
    
    [GRAPHIC] [TIFF OMITTED] T6579A.061
    
    [GRAPHIC] [TIFF OMITTED] T6579A.062
    
    [GRAPHIC] [TIFF OMITTED] T6579A.063
    
    [GRAPHIC] [TIFF OMITTED] T6579A.064
    
    [GRAPHIC] [TIFF OMITTED] T6579A.065
    
    [GRAPHIC] [TIFF OMITTED] T6579A.066
    
    [GRAPHIC] [TIFF OMITTED] T6579A.067
    
    [GRAPHIC] [TIFF OMITTED] T6579A.068
    
    [GRAPHIC] [TIFF OMITTED] T6579A.069
    
    [GRAPHIC] [TIFF OMITTED] T6579A.070
    
    [GRAPHIC] [TIFF OMITTED] T6579A.071
    
    [GRAPHIC] [TIFF OMITTED] T6579A.072
    
    [GRAPHIC] [TIFF OMITTED] T6579A.073
    
    [GRAPHIC] [TIFF OMITTED] T6579A.074
    
    [GRAPHIC] [TIFF OMITTED] T6579A.075
    
    [GRAPHIC] [TIFF OMITTED] T6579A.076
    
    [GRAPHIC] [TIFF OMITTED] T6579A.077
    
    [GRAPHIC] [TIFF OMITTED] T6579A.078
    
    [GRAPHIC] [TIFF OMITTED] T6579A.079
    
    Mr. Boucher. Well, thank you very much, Ms. Taylor, and 
thanks to each of our witnesses for joining us and sharing your 
views on broadband adoption. Ms. Mattey, I will begin my 
questions with you.
    I am of the view that Ms. Matsui has performed a real 
service, as has the FCC in putting forward its broadband plan 
in recommending an expansion of the Lifeline and Linkup 
programs under universal service so as to promote broadband 
adoption. But I think we have a challenge in understanding what 
that would cost.
    And to the extent there is a cost, the Universal Service 
Fund would have to be increased in order to accommodate that 
cost. So do you have any data about what the cost of her bill, 
for example, would be? Or what the cost of your recommendation 
as contained in the broadband plan would be for an expansion of 
Lifeline and Linkup?
    Ms. Mattey. Thank you, Chairman. Actually as we were 
developing the recommendations on this, we came to realize that 
there was not sufficient empirical data that would enable us to 
project what increased demand would occur if we were to expand 
Lifeline to broadband, and that is precisely why the plan 
recommended that we first conduct a pilot in order to actually 
test and observe what would happen. And then we would be in a 
position to make a judgment as to the cost of a permanent 
implementation of the plan.
    Mr. Boucher. Well, that is a very interesting approach, and 
one that would reveal the data about what the real costs are. 
Do you have any suggestions for how that pilot should be 
structured? Do you have any thoughts about the numbers of homes 
that should be subjected to the pilot study and other 
parameters?
    Ms. Mattey. We are just beginning to start to think about 
that, and, in fact, we are planning to have a workshop later in 
about a month or so where we will be exploring those questions, 
how many households, how you could test and compare. Obviously 
if you are doing a test, you need to have in essence a control 
group and then a group that actually obtains the subsidy and 
potentially subsidies of different levels and also test the 
impact of coupling the subsidy with programs for digital 
literacy or the provision of, for instance, computers in the 
private sector.
    Mr. Boucher. Well, I am glad that you are focusing on that. 
Let me suggest, if at all possible, that you accelerate by a 
good bit the formulation of a recommendation to us on that 
because we hope to be able to mark up soon the universal 
service reform comprehensive legislation that Congressman Terry 
and I have put forward. And we would like to make sure that the 
goals that Ms. Matsui has announced with regard to Lifeline and 
Linkup are reflected in that legislation. Our timeframe for 
doing that is fairly near term. So the sooner we get 
recommendations from you about how to structure an appropriate 
pilot to give us some reliable information about real costs, 
the better. Let me just leave that with you.
    Ms. Taylor, I have a question for you. I am concerned, and 
I know that many are, about the reliability of some of the 
state-created broadband maps revealing the availability of 
broadband. And the particular concern that I have is that many 
of the states relied upon data provided by the carriers with 
regard to where broadband was present and where it was not.
    And it is both costly and time consuming to try to verify 
that data, and so in many instances, what appeared in the 
state-based broadband map was simply the data provided by the 
carrier. And I think what a lot of carriers may have chosen to 
do is simply say well, you know, we have--this is our service 
territory, and we are providing broadband. But it wasn't a very 
granular examination, and there were vast areas in many of 
these instances where broadband in fact was not available. My 
own congressional district is a great example of that, and the 
Virginia map broadly overstates broadband availability in my 
district as compared to the actuality.
    So my question to you is this. I know you have done a lot 
of work in this area. Your organization has been contracted to 
help prepare broadband maps. Did you encounter this problem? 
And do we have a better way of learning where broadband really 
is available than simply relying on carrier-provided data?
    Ms. Taylor. Well, excuse me, Mr. Chairman. I think you 
speak to the heart of the issue, the mapping challenge, 
because--and it really speaks to how important, how critical 
the verification process is. Providers, we have found, submit 
good, solid data, but, as you mentioned, it is not always quite 
as granular as we would like it to be. And it is not always 
perfect because, quite frankly, providers don't always know 
exactly where they can and cannot provide service until they 
actually go out and test the home.
    So that verification process on the ground is critical. You 
are right. It is time consuming. However we have found that it 
is well worth it because those locally accurate maps to get to 
that point, and we get to that point with the maps, through the 
verification process. And it takes multiple verifications, 
surveys on the ground, field tests. Consumer feedback through 
the web-based interactive maps is one of the best and least 
expensive forms of verification.
    Mr. Boucher. So where you have been contracted to prepare 
the map or participate in the preparation of it, there is some 
verification of the data that the carriers have provided?
    Ms. Taylor. Absolutely.
    Mr. Boucher. That is something you always do?
    Ms. Taylor. Absolutely.
    Mr. Boucher. OK, and would you agree that in those 
instances where carrier data alone is relied on, that leads to 
some rather significant inaccuracies in the map as a normal 
matter?
    Ms. Taylor. I would say that it varies from one carrier to 
the next.
    Mr. Boucher. But in some cases it would?
    Ms. Taylor. In some cases, it will, and verification is 
critical for that.
    Mr. Boucher. It is critical in all of these cases?
    Ms. Taylor. That is right.
    Mr. Boucher. OK. Thank you, Ms. Taylor. Ms. Chong, I would 
like to call on you for this. Unfortunately my time has 
expired, and we now have a series of seven recorded votes on 
the floor, and Mr. Stearns and I are going to try to finish at 
least our two sets of questions. So I will recognize him at 
this time.
    Mr. Stearns. Mr. Chairman, thank you very much. And, Ms. 
Taylor, let me compliment you on your opening statement. I 
think when you mentioned that the demand was created so that 
minorities outnumber Caucasians, you said, was that in the 
state of Tennessee?
    Ms. Taylor. That is right. It is.
    Mr. Stearns. Yes, so I think that pretty much says it all, 
that your not-for-profit organization is doing that. So when 
you go to look at the broadband plan and you see that the FCC 
has indicated time and time again that everybody involved with 
this, this is not a self-effectuating plan. But then again, you 
start to see the FCC move out and say they are going to pass 
legislation.
    So, Ms. Mattey, you acknowledged that pretty much this plan 
is not something that should be implemented by you folks, yet 
you have acknowledged that much of--in fact you said that much 
of it would require congressional action. But now Mr. 
Jenachowski and the FCC is moving out to move the Internet from 
Title I to Title II. And isn't it disingenuous now for the FCC 
to say it must reclassify broadband to implement the plan?
    Ms. Mattey. That is a question that I would defer to the 
general counsel and the chairman of the FCC.
    Mr. Stearns. Can the FCC or the NTIA move forward with the 
digital literacy corporation program, corps rather--digital 
literacy corps program on your own, or do you need legislation?
    Ms. Mattey. I believe that there needs to be appropriations 
to support such a corps.
    Mr. Stearns. Is it your position now the FCC would not 
establish this digital literacy corps without congressional 
approval?
    Ms. Mattey. I don't know the answer to that question.
    Mr. Stearns. OK. Ms. Chong, how many languages are taught 
in California?
    Ms. Chong. In the school system?
    Mr. Stearns. Yes.
    Ms. Chong. Primarily English, but we do have a number of--
--
    Mr. Stearns. No, I am asking the total number. Besides 
English, how many language courses are taught? By this I mean a 
person comes in and does not understand English, so I assume 
you teach in Spanish in the beginning.
    Ms. Chong. Yes.
    Mr. Stearns. How many cases like that? Do you teach 
Mandarin Chinese? Do you teach many languages? How many do you 
teach?
    Ms. Chong. I don't know the exact number on that, but I 
would assume that it is a very large number.
    Mr. Stearns. Yes, we looked at it, and I think we said 
almost 40. In this broadband plan, there is a--they are 
recommending a digital literacy portal. This would be something 
that probably you support, and I think you sort of mentioned 
this idea that everybody could go to the Internet and get to 
this digital portal to understand how to use the Internet and 
they impart digital skills.
    Would you realize that in this broadband plan that 
everybody should have the opportunity to get it in its native 
language? So again you would have to set up this digital portal 
to allow almost 40 different languages, you know. So I mean all 
of you should perhaps see what Ms. Taylor says in her opening 
statement, that she is creating this demand through a not-for-
profit organization. We don't need the government to go in and 
set up a, you know, a digital literacy corps of people and then 
set up the Internet to teach them through their native language 
when it can be established by what Ms. Taylor says.
    Is that an accurate statement, what you are saying, Ms. 
Taylor, that this can be done through not-for-profit 
organizations that is creating a demand rather than going ahead 
and setting up--the government set up a digital literacy corps 
and set up a portal where they teach you in 40 some different 
languages? You might comment on this digital literacy corps and 
this native language that they want to set up on the computer.
    Ms. Taylor. Well, that, you know, the digital literacy 
corps is one of the many recommendations in the FCC plan that I 
think are worth considering. It is true that there have been 
great gains through nonprofit such as Connected Nation, such as 
One Economy, and this is----
    Mr. Stearns. I would think that would be a better approach 
than the government taking over and setting up the Web site, 
teaching native languages and so forth. I mean I would think 
your approach would be better.
    But anyway, let me ask you this question, Ms. Taylor. 
Toward the end of your written testimony, you suggest that 
network neutrality is not likely to promote broadband adoption 
or availability, and in fact it is distracting from more 
productive and cost-effective efforts. Could you elaborate on 
that?
    Ms. Taylor. Sure. We believe that it is imperative right 
now in the midst of these very complex policy issues that are 
being considered in Washington, that we don't lose sight of the 
work that is taking place across the Nation, and that these 
discussions don't take resources away from or undermine the 
efforts that are going on across the country in Tennessee and 
Ohio and other places.
    Really we believe that the two bigger challenges are 
getting broadband where it is not and solving this supply-side 
gap that we are talking about here today. You know the people 
in Coshocton County, in Perry County don't care about 
reclassification. They just want to get their people connected, 
and they want to ensure that they have the resources for the 
programs to do so.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stearns. We have 
about five minutes in total left to respond to these recorded 
votes. And I am told that all of the other members have agreed 
that they will not pose questions, but we want to offer Ms. 
Matsui an opportunity to pose hers. So the gentlelady from 
California is recognized.
    Ms. Matsui. Thank you, Mr. Chairman. As I mentioned in my 
opening statement, the recent FCC survey found that 28 million 
Americans do not subscribe to the Internet due to high costs of 
broadband-related services. The fact is the high cost of 
broadband leaves far too many lower-income families in urban 
and rural areas.
    Simply put, if you don't have the Internet, you are really 
at a competitive disadvantage. Ms. Mattey, in the FCC studies, 
did the FCC find that the cost of broadband service and related 
installation costs are the number one reason why lower-income 
households do not subscribe to the Internet?
    Ms. Mattey. Yes, we did.
    Ms. Matsui. Rivkah, have you heard of any examples at the 
local level about the cost of broadband services being a real 
barrier to adopting broadband at home?
    Ms. Sass. Yes, just about every single day, someone talks 
about the library as their only lifeline to the Internet 
because they have had to give it up for cost-saving reasons.
    Ms. Matsui. Ms. Mattey, do you believe that Lifeline Linkup 
assistance for broadband will spur broadband adoption rates in 
urban and rural areas?
    Ms. Mattey. Yes, I do.
    Ms. Matsui. And, Rivkah, in your testimony, you alluded to 
the fact that my Lifeline for broadband proposal would go a 
long way to assist unadopters become adopters again. Could you 
elaborate on this point, and have you seen examples of this in 
Sacramento?
    Ms. Sass. Absolutely. I think your bill provides that 
opportunity in going a long way to getting those unadopters 
back on track with access. The costs for those who don't have 
access to the Internet are growing exponentially because so 
many services are only available online, whether it is applying 
for a job, accessing governmental services, all--most of--we 
are trying to move to e-government. All of those things are 
impacted, so yes, it would help.
    Ms. Matsui. OK, these are tough economic times, and anchor 
institutions like schools and libraries play an important role 
in broadband adoption. And as you indicated in your testimony, 
libraries are having a difficult time meeting demand as more 
and more hardworking Americans are now relying on computers at 
their local library to look for a job.
    Now, I understand that you are working in Sacramento to 
teach digital literacy skills to assist individuals with 
broadband adoption efforts, and I believe it is critically 
important to create a culture of broadband adoption and this 
starts at local forums like anchor institutions.
    Can you describe some of your efforts in digital literacy? 
And from your perspective, do you have enough computers in the 
Sacramento library system to meet demand during these 
challenging economic times?
    Ms. Sass. Thank you. Visits to our libraries in Sacramento, 
we have 27 locations, urban, suburban, and rural. Sacramento is 
a very diverse county. Visits are up about 50 percent over last 
year. So we are busy, and we are seeing more and more people 
who don't have the skills or the access at home. So we are 
providing basic Internet classes. We are one of four libraries 
in the state.
    We have a 13.1 percent unemployment rate in Sacramento. We 
are one of four libraries that was part of a pilot program to 
teach job-seeking skills and help people find jobs using 
broadband. So it is incorporated into everything we do. We are 
in fact the de facto digital literacy corps. That is what 
librarians do and have been doing for the last 15 years.
    Ms. Matsui. So you would also like some help with this too?
    Ms. Sass. We would like some help with it. We don't have 
enough computers. We just opened a new library in suburban 
Sacramento, south Sacramento. It serves a very diverse, 
challenged community, high unemployment. There are days when, 
with a 10-megabit connection, the staff cannot do their work 
because the Internet usage between the wireless, all the public 
access computers, the loaning laptops, we are overwhelmed 
literally.
    Ms. Matsui. Mr. Chairman, I completed my questioning. I 
really thank you very much.
    Mr. Boucher. Thank you very much, Ms. Matsui. Thanks again 
to all of our witnesses. We appreciate your testimony, and we 
may be consulting you individually as we continue our 
consideration of broadband adoption. Thanks to all the members 
for participating this morning. This hearing stands adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6579A.080
    
    [GRAPHIC] [TIFF OMITTED] T6579A.081
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
